Audit Report

Office of Justice Programs,
Serious and Violent Offender Re-entry Initiative Grant
Administered by the Michigan Department of Corrections,
Lansing, Michigan

Report No. GR-50-05-004


January 2005
Office of the Inspector General


Executive Summary





The Office of the Inspector General, Audit Division, has completed an audit of the Serious and Violent Offender Re-entry Initiative grant awarded by the U.S. Department of Justice, Office of Justice Programs (OJP) to the Michigan Department of Corrections (MDOC).  The purpose of the grant was to develop and maintain a program to better protect public safety through the Michigan Re-entry Initiative entitled the Walk With Me Project (the Project).  As of September 30, 2004, OJP had awarded a total of $1,052,000 to MDOC.  At that time, MDOC reported $754,645 in grant-related costs, of which $597,452 (79 percent) had been reimbursed by OJP.

Although MDOC is the grantee and therefore has overall accountability for the Project, all costs charged to the grant were being incurred by Wings of Faith, Incorporated, the sole subcontractor.  Wings of Faith is a faith-based, community organization headquartered in Detroit, Michigan that MDOC contractually retained to coordinate and implement the Projects day-to-day activity.

We tested MDOCs and Wings of Faiths accounting records to determine if reimbursements claimed for costs under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  Specifically, we reviewed $137,716 in transactions relating to personnel costs, travel, equipment, supplies, consultant and contract fees, rent, and insurance expenditures.

We found that MDOC was not adequately monitoring its sole subcontractor, Wings of Faith.  As a result, MDOC was not aware of the fact that Wings of Faith did not have an adequate accounting system to ensure that accurate, complete, and reliable grant-related financial information was being provided to MDOC.  In addition, our detailed testing indicated that $22,436 in grant expenditures charged to the grant by Wings of Faith were either inadequately supported or unallowable.  Therefore, we question these costs.1
These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope, and methodology appear in Appendix II.

We discussed the results of our audit with MDOC officials and have included their comments in the report as applicable.  In addition, we requested and received responses to our draft report from MDOC and OJP.  These responses appear in Appendix III and IV.
   



Footnotes

The Inspector General Act of 1978, as amended, contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix I for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.